WAIVER

Supreme Court of the United States

No. 20-52
Yeitza Marie Aponte-Bermudez v. Eligio Colén, et al.
(Petitioner) (Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
OQ Please enter my appearance as Counsel of Record for all respondents.

& There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

See Attachment A.

 

& Iam a member of the Bar of the Supreme Court of the United States.

Q Lam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

  

 

 

Signature =
Date: % | (re (20
(Type or print) Name. Francisco J. Col6én-Pagan

 

Mr. OMs. O Mrs. U Miss
Firm__Col6n & Colon, PSC
Address_P.O. Box 9023355
City & State San Juan, PR Zip 00902-3355

Phone (787) 758-6060 ext. 236 / (939) 389-6060

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: David Efr6n, Esq.

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
Waiver
Supreme Court of the United States
No, 20-52

Attachment A

Respondents:
Carmen Gloria Fernandez Torres, Eligio Rafael Colon Fernandez, Luis Alberto Colon
Fernandez, Ricardo Colon Fernandez, Marigloria Colon Fernandez, Manuel Pablo

Colon Fernandez, Maricarmen Colon Fernandez, Marirosa Colon Fernandez.
